i

>

t

APPENDIX A

State v. Williams. 2020-Qhio-5634. 2020 Ohio LEXIS 2779 (Ohio, Dec. 15, 2020)

FBI!
vWje Supreme (Court of (©bio

7:r3

rim

DEC 15 2020

CLERK OF COURT

su PREME COURT OF OHIO
State of Ohio

Case No. 2020-1197

v.

ENTRY

Rubin L. Williams

Upon consideration of the jurisdictional memoranda filed in this case, the court
declines to accept jurisdiction of the appeal pursuant to S.Ct.Prac.R,„ 7.08(B)(4).
(Columbiana County Court of Appeals; No. 19 CO 0010)

ajuAjlx

J

Maureen O’Connor
Chief Justice

The Official Case Announcement can be found at http://www.supremecourt.ohio.gov/ROD/docs/

APPENDIX B

State v. Williams. 2020-0hio-4430

ii

State v. Williams, 2020-0hio-4430
Copy Citation
Court of Appeals of Ohio, Seventh Appellate District, Columbiana County
August 21, 2020, Decided
Case No. 19 CO 0010
Reporter
2020-0hio-4430 *

2020 Ohio Ann. LEXIS 3316 ** I 2020 WL 5525263

STATE OF OHIO, Plaintiff-Appellee, v. RUBIN L. WILLIAMS, DefendantAppellant.
Subsequent History: Motion denied by, Judgment entered by State v. Williams1
2020-0hio-5045. 2020 Ohio Ann. LEXIS 3899. 2020 WL 6266935 (Ohio Ct. App.,
Cnhimhiana Countv. Oct. 23. 2020)
Discretionary appeal not allowed by State v. Williams, 160 Ohio St. 3d 1497, 2020Ohio-5634. 2020 Ohio LEXIS 2779. 159 N.E.3d 284, 2020 WL 7347761 (Ohio, Dec.
15. 2020)
Discretionary appeal not allowed by State v. Williams. 2021-Qhio-254, 2021 Ohio
LEXIS 198 (Ohio. Feb. 2. 2021)
Prior History:
[**11 Criminal Appeal from the Court of Common Pleas of Columbiana County,
Ohio. Case No. 2018-CR-155.

Disposition:
Affirmed.
Core Terms
fentanyl, but-for, causation, drugs, heroin, legal cause, foreseeable, involuntary
manslaughter, weight of the evidence, pink, injected, phone, actual cause, controlled
substance, assigned error, drug overdose, overdose, supplied, credibility, packet,
mixed, independent cause, proximate result, delivery, manifest, felony, runner,
cases, defendant's conduct, drug trafficking

Page 1 of 23

Case Summary
Overview
HOLDINGS: [^-Sufficient evidence supported defendant’s conviction for
involuntary manslaughter under R.C. 2903.04(A), with the underlying felony
offense of drug trafficking under R.C. 2925.03(A)(1), because, from the direct and
circumstantial evidence presented at the trial, a rational juror could have concluded
that defendant sold the fentanyl which was injected by the decedent; [2]-Because
the coroner concluded the dose of fentanyl in the decedent's system was lethal and
she would still be alive but for taking the fentanyl, it could have been found that the
fentanyl was the actual cause (or cause-in-fact) of the decedent's death. The
testimony indicated that the decedent believed she was receiving and injecting
heroin, not fentanyl, and the facts suggested that fentanyl was the final controlled
substance ingested and was not anticipated by the decedent to be fentanyl.

Outcome
Judgment affirmed.

HN1 Witnesses, Credibility
The standard for reviewing the sufficiency of the evidence to support a criminal
conviction on appeal is the same as the standard used to review the denial of a
motion for acquittal. Whether the evidence is legally sufficient to sustain a
conviction is a question of law dealing with adequacy. An evaluation of witness
credibility is not involved in a sufficiency review as the question is whether the
evidence is sufficient if believed. In other words, sufficiency involves the State's
burden of production rather than its burden of persuasion.
HN2 Substantial Evidence, Sufficiency of Evidence
A conviction can be sustained based on circumstantial evidence alone.
Circumstantial evidence inherently possesses the same probative value as direct
evidence.
HN3 Substantial Evidence, Sufficiency of Evidence
A conviction cannot be reversed on the grounds of insufficient evidence unless the
reviewing court determines that no rational juror could have found the elements of
the offense proven beyond a reasonable doubt. In conducting this review, all of the

Page 2 of 23

evidence is to be viewed in light most favorable to the prosecution. Reasonable
inferences to be drawn from the evidence are also evaluated in the light most
favorable to the state. The question is merely whether any rational trier of fact
could have found the essential elements proven beyond a reasonable doubt
HN4 Involuntary Manslaughter, Elements
First-degree felony involuntary manslaughter has the relevant following elements:
cause the death of another as a proximate result of the offender's committing or
attempting to commit a felony. R.C. 2903.04(A), (C).
HN5 Acts & Mental States, Actus Reus
In general, when a crime requires both conduct and a specific result of the conduct,
a defendant's conduct must be both the actual cause and the legal cause of the
result.
HN6 Involuntary Manslaughter, Elements
The United States Supreme Court has defined the involuntary manslaughter
element of "death results" as requiring but-for causation so that the State was
required to prove that the decedent would not have died but for the defendant's
conduct. In other words, the prosecution must submit proof that the harm would not
have occurred in the absence of—that is, but for—the defendant's conduct. The
Court first gave the simple example of a defendant shooting a victim who dies from
the gunshot, stating the defendant actually caused the death because but for the
conduct, the decedent would not have* died. Notably, the same conclusion follows if
the predicate act combines with other factors to produce the result, so long as the
other factors alone would not have done so—if, so to speak, it was the straw that
broke the camel's back.
HN7 Involuntary Manslaughter, Elements
Regarding the involuntary manslaughter element of "death results," the defendant's
conduct can still be an independent cause even though his conduct was not the butfor cause of death if the victim would have died anyway.

HN8 Delivery, Distribution & Sale, Penalties
The United States Supreme Court has held that, at least where use of the drug
distributed by the defendant is not an independently sufficient cause of the victim's
death or serious bodily injury, a defendant cannot be liable under the penalty
enhancement provision of 21 U.S.C.S. § 841(b)(l)(C)unless such use is a but-for
cause of the death or injury.
HN9 Acts & Mental States, Actus Reus
R.C. 2903.04. involuntary manslaughter, requires a defendant to cause the death of
another as a proximate result of committing or attempting to commit a felony. R-CL

Page 3 of 23

2903.04(AHU. Ohio courts regularly conclude the "proximate result" language in the
involuntary manslaughter statute requires the State to show: (1) actual cause
generally through the but-for test; and then; (2) legal cause, through the
foreseeability test. Ohio's standard jury instruction first defines cause as an act or
failure to act which in a natural and continuous sequence directly produces the
death of another, and without which it would not have occurred; it then explains
that natural consequences include the foreseeable consequences that follow in the
ordinary course of events. The language, "without which it would not have
occurred," encapsulates but-for causation.
HN10 Felony Murder, Elements
In order for a criminal defendant's conduct to be the proximate cause of a fatal
result in a felony murder case, the court must first determine whether the killings
would not have occurred but for the defendant's conduct. The court must then
determine whether the result varied greatly from the intended outcome or
foreseeable result of the underlying crime.
HN11 Involuntary Manslaughter, Elements
The but-for test of causation is the standard test for establishing cause in fact. A
substantial factor can be used in civil cases where a plaintiff suffers a single injury
as a result of the tortious acts of multiple defendants. In criminal cases involving
the involuntary manslaughter statute and a mixed drug overdose, some Ohio
appellate courts have expressed that, contrary to Burrage, a substantial factor test
can be applied
HN12 Acts & Mental States, Actus Reus
The independent cause test is not the same as but-for causation. If the situation
does not satisfy the independent cause test, then but-for causation would apply.
This was stated after pointing out that the independent cause test was not before
the United States Supreme Court. Therefore, in applying the but-for test to actual
cause, the United States Supreme Court did not require the prosecution to show the
drug supplied would have killed the decedent if there were no other drugs in her
system
HN13 Expert Witnesses, Daubert Standard
In response to an argument on the failure to modify an opinion by reasonable
degree of scientific certainty language, the Ohio Supreme Court has pointed out
that Evid.R. 702 requires that an expert's testimony be based on reliable scientific,
technical, or other specialized information.
HN14 Expert Witnesses, Daubert Standard
The Ohio Supreme Court has held that an expert witness in a criminal cases can
testify in terms of possibility rather than in terms of a reasonable scientific
certainty or probability, and the treatment of such testimony is analyzed under a

Page 4 of 23

sufficiency and weight argument, meaning that it is considered along with all of the
other evidence
•

HN15 Acts & Mental States, Actus Reus
In a criminal case, cause in fact is distinct from proximate, or legal cause. After
cause in fact is established, proximate cause must be demonstrated
HN16 Acts & Mental States, Actus Reus
Foreseeability should be assessed from the viewpoint of what the criminal
defendant knew or should have known in light of ordinary experience
HN17 Delivery, Distribution & Sale, Elements
The possibility of overdose is a reasonably foreseeable consequence of the sale of
heroin
HN18 Burdens of Proof, Prosecution
Weight of the evidence concerns the inclination of the greater amount of credible
evidence, offered in a trial, to support one side of the issue rather than the other, it
deals with the persuasive effect of the evidence in inducing belief and is not a
question of mathematics. A weight of the evidence review considers whether the
state met its burden of persuasion, as opposed to the burden of production involved
in a sufficiency review.
HN19 Witnesses, Credibility
When a defendant claims a conviction is contrary to the manifest weight of the
evidence, the appellate court is to review the entire record, weigh the evidence and
all reasonable inferences, consider the credibility of witnesses, and determine
whether, in resolving conflicts in the evidence, the trier of fact clearly lost its way
and created such a manifest miscarriage of justice that the conviction must be
reversed and a new trial ordered. The appellate court's discretionary power to grant
a new trial on these grounds can be exercised only in the exceptional case where the
evidence weighs heavily against the conviction.
HN20 Province of Court & Jury, Weight of Evidence
The weight to be given the evidence is primarily for the trier of the facts.
HN21 Province of Court & Jury, Credibility of Witnesses
The trier of fact occupies the best position from which to weigh the evidence and
judge the witnesses' credibility by observing their gestures, voice inflections, and
demeanor.

HN22 Witnesses, Credibility
In a case tried by a jury, only a unanimous appellate court can reverse on the

Page 5 of 23

ground that the verdict was against the manifest weight of the evidence. Ohio
Const, art. IV. S 3(B)(3). The power of the court of appeals to sit as the "thirteenth
juror" is limited in order to preserve the jury's role with respect to issues
surrounding the credibility of witnesses and the weight of the evidence. When more
than one competing interpretation of the evidence is available and the one chosen
by the jury is not unbelievable, we do not choose which theory we believe is more
credible and impose our view over that of the jury.

Counsel: Atty. Robert Herron, Prosecutor, Atty. John E. Gamble, Chief Assistant
Prosecutor, Atty. Tammie Riley Jones, Assistant Prosecutor, Lisbon, Ohio, for
Plaintiff-Appellee.
Atty. Edward A. Czopur, DeGenova & Yarwood, Ltd., Ohio, for DefendantAppellant.
Judges: BEFORE: Carol Ann Robb, Cheryl L. Waite, David A. D'Apolito, Judges.
Waite, P.J., concurs. D'Apolito, J., concurs.
Opinion by: Carol Ann Robb
OPINION AND JUDGMENT ENTRY
Robb, J.
r*P11 Defendant-Appellant Rubin Williams appeals after being convicted in the
Columbiana County Common Pleas Court of involuntary manslaughter and drug
trafficking. Appellant contests the sufficiency of the evidence on the causation
element of involuntary manslaughter. He says the contributing role played by the
fentanyl he allegedly provided to the decedent did not establish his drug trafficking
was the actual cause of her overdose death due to the mix of drugs in her system.
He relies on the United States Supreme Court's Burrage case, while the state urges
the case is distinguishable. Legal cause is also raised, which invokes a foreseeability
evaluation. Appellant additionally challenges [**21 the weight of the evidence,
stating the jury clearly lost its way on causation. For the following reasons, the trial
court's judgment is affirmed.

STATEMENT OF THE CASE
F*P21 On May 17, 2018, Appellant was indicted for involuntary manslaughter for
causing the death of Jennifer Bettis as a proximate result of committing or

Page 6 of 23

attempting to commit a felony (drug trafficking). SeeR.C. 2903.04(A). Appellant was
also indicted for knowingly selling or offering to sell a controlled substance,
specified as fentanyl (a Schedule II controlled substance). See R.C. 2925.03(A)(1).
The testimony indicated that Appellant's drug runner was to deliver to the decedent
$40 worth of heroin (a Schedule I controlled substance). Instead, the decedent
received a pink substance containing fentanyl, and she died after injecting it.
f*P31 The case was tried to a jury. The decedent's friend testified that she allowed
the decedent to move into her apartment in Salem (to sleep on her couch) some
weeks before the death. The friend was unaware of the decedent's drug use. (Tr.
230). On October 14, 2016, she left her one-year-old child with the decedent in the
afternoon, without anticipating being gone overnight. (Tr. 231, 245). While she was
out, she called and f**31 texted the decedent multiple times with no response. (Tr.
233, 249). She did not return to her home until nearly 6:00 a.m. on October 15,
2016. (Tr. 233). She found the decedent's body in a chair at the kitchen table. On the
table was an uncapped syringe, a spoon with residue, a folded paper packet
containing a pink substance, a lighter, and other drug paraphernalia. (Tr. 237, 280281, 284). A baby gate impeded the entrance to the kitchen, and the child was found
sleeping on the floor by the gate. (Tr. 248).
|~*P41 A Salem police officer testified that he was dispatched at 5:57 a.m. to the
apartment near the police station after a frantic call was made to 911. He observed
there were no signs of forced entry or a struggle, pointing out how the decedent was
still sitting in a kitchen chair with her left leg crossed over her right leg and her
head back. (Tr. 204). He said it was clear she was dead because blood was already
pooling behind her skin in lower spots. (Tr. 211). The detective confirmed the
officer's observations. (Tr. 276-277). He also noticed track marks on the decedent's
inner elbow. (Tr. 280). In addition to the drug paraphernalia on the table, the
decedent's purse contained more 1**41 syringes. (Tr. 280). There was vomit in the
trash can near the body, and there was testimony explaining how a drug addict can
be "dope sick" while awaiting drugs due to withdrawal. (Tr. 290, 392).
r*P51 A forensic scientist from BCI testified that the pink substance in the folded
paper packet contained fentanyl. (Tr. 509). Another BCI forensic scientist testified
that male DNA was present on the exterior of the packet, but it was not suitable for
comparison as it was of insufficient quantity or quality. (Tr. 525). The toxicology
report showed the decedent's blood contained fentanyl, benzodiazepines (anti­
anxiety), dextromethorphan (cough suppressant), and gabapentin (anti-convulsant).
(Tr. 454, 467, 472, 480-483).
r*P61 The decedent's husband testified that they had been separated for seven
years and he had custody of their two children. As the decedent had no car or
license, he drove to the Salem apartment on October 14, 2016 before 4:00 p.m. in

Page 7 of 23

order to transport her to her mother's house so she could attend a parent's day
function the next day. However, she could not leave as she was babysitting. When
she requested $40 for gas money to find a ride the next day, the husband went to a
store to [**51 withdraw the money from an ATM and to buy her a pack of cigarettes.
(Tr. 217-218). He texted the decedent a few hours after he left to provide the time
for the event, but she did not respond. (Tr. 219). The decedent's husband noted that
a year before her death, he picked her up after she was treated at a drug
rehabilitation facility. (Tr. 222). He said she had no chronic health conditions. (Tr.
215).
f*P71 After the police left the apartment, the decedent's friend looked through an
old cell phone which she previously let the decedent use. The phone was logged in to
the decedent's Facebook account, and the friend saw private messages about drug
transactions between the decedent and a person with the profile name of "Scrooug
McDuck." (Tr. 240-241). She brought the phone to the police station but was then
locked out of the decedent's Facebook account. (Tr. 250).
f*P81 The decedent's own phone had already been seized by the police, and they
soon extracted information from it. (Tr. 263, 346-347, 349). By serving a search
warrant on Facebook, they also obtained the decedent's Facebook Messenger
conversations with Scrooug McDuck (such as the one viewed by the friend on her
old phone). (Tr. 305). In the 1**61 meantime, the detective discovered that Scrooug
McDuck's Facebook profile was public and obtained his profile picture, another
nickname, and a list of friends. His girlfriend's name, Ursula Lewis, matched the
name of a person present when a search warrant was executed in Boardman. (Tr.
298-300). After speaking to various law enforcements agencies, the detective
matched Scrooug McDuck's profile picture with the photograph in the state's official
records associated with Appellant Rubin Williams. (Tr. 299-302).
f*P91 The detective also traced a phone number used to communicate with the
decedent around the time of the suspected drug delivery; it was assigned to Nicole
Miladore-Mitchell, who lived at the Boardman house where the recent search
warrant was executed. (Tr. 292-294). The detective found Nicole in jail after she was
arrested for fleeing from the police and crashing a vehicle (which resulted in the
death of her passenger who had been shoplifting just before the crash). (Tr. 309,
420-421). At trial, Nicole testified that she was serving a prison sentence for
involuntary manslaughter, failure to comply, and operating a vehicle while
intoxicated, all associated with the crash. (Tr. 386). P**71 She said Appellant was
her drug dealer, and he came to stay with her (and her boyfriend) in October 2016,
after Appellant got into an argument with his roommate who was also a drug
dealer. (Tr. 388, 408). Appellant's girlfriend Ursula moved into the Boardman house
as well. Nicole received free drugs for her addiction in exchange for allowing

Page 8 of 23

Appellant to operate out of her house and for acting as his drug runner. (Tr. 388391).
r*P101 Nicole said Appellant used her wireless internet connection because he had
a phone with no cellular service. (Tr. 393). She also let him borrow her phone in the
past. (Tr. 410). She observed that Appellant often communicated with her and with
his clients about drug transactions using Facebook Messenger where his profile
name was Scrooug McDuck. (Tr. 394, 427). Nicole testified that she was involved in
deliveries to the decedent in Salem at Appellant's instruction on the day before her
body was discovered and a prior day. (Tr. 396, 413-414). On October 12, 2016, she
was high on drugs while her boyfriend drove to meet the decedent in the parking lot
of the Salem apartment; she said Ursula was with them in the car. (Tr. 413).
r*P111 On October 14, 2016, Nicole drove to f**81 the decedent's apartment alone
after Appellant handed her the packet of drugs, which she believed was heroin. (Tr.
396-397, 414). She said she used her phone to contact the decedent to tell her she
had arrived, and the decedent handed her $40 for the drugs. (Tr. 398-399, 414).
Nicole maintained contact with Appellant on the way to the decedent's location and
on the way home. (Tr. 397, 399, 428-429). Nicole turned over the $40 to Appellant
when she returned to her house. (Tr. 399).
[*P121 Nicole revealed that the day before this delivery, she personally had a bad
experience with heroin Appellant gave her. Prior to injecting it, she observed that it
was pink while heroin is usually brown. She injected the substance in the presence
of her boyfriend, Ursula, and Appellant, and they later informed her that they
feared she was overdosing. (Tr. 400). Later, when Appellant learned of the death, he
expressed his concern to Nicole because the decedent overdosed on the drugs he
provided. (Tr. 401).
(*P131 The coroner explained that due to the increase in drug overdose deaths, the
forensic pathologist in Cuyahoga County informed the various counties serviced by
that office that autopsies for overdoses would 1**91 no longer be performed without
a written statement explaining the need. (Tr. 462-463). The coroner testified that
the decedent's death would not have occurred in the absence of the fentanyl. (Tr.
493). His testimony is further detailed below in addressing the assignments of
error.
[*P141 After Appellant moved for acquittal, he testified in his own defense and
presented the testimony of his former girlfriend. Appellant testified that he began
selling drugs to the decedent in early 2016 but claimed he was not still selling to her
in October of that year. (Tr. 574-575). He said he sold heroin and crack but did not
sell fentanyl as people were not using it yet. (Tr. 585). He claimed his roommate,
who was his supplier, evicted him around October 11, 2016 and took his drug cache.
(Tr. 576, 578, 586). Appellant said after he moved into Nicole's house, Nicole

Page 9 of 23

supplied drugs to the decedent, not him. (Tr. 574-575). He said he used Nicole's
phone and logged in to Facebook but forgot to log out when he gave the phone back
to her, which gave her access to his Facebook account. (Tr. 581-582). He denied
speaking to the decedent through his Facebook account on October 14, 2016. (TR.
582). His criminal history r**101 was discussed. He did not use the drugs he sold
(besides marijuana and some pills), but he noted that his girlfriend and other users
tested his product supply. (Tr. 595-596).
UP 151 Ursula testified that when Appellant's roommate cut off his drug supply in
October 2016, Appellant no longer had drugs to sell and lacked a supplier. She
claimed that Nicole and her boyfriend would pick up drugs from somewhere on the
east side of Youngstown as they had a car. (Tr. 549-550, 553). Still, Appellant
continued to arrange drug sales through Facebook Messenger. (Tr. 559-560). Ursula
knew Nicole brought drugs to the decedent shortly before her death because
Appellant (and Nicole) told her. (Tr. 554). Ursula admitted that after Nicole and her
boyfriend would retrieve and deliver the drugs, they all would split the profit (she
would snort it and they would inject it). (Tr. 556). Ursula acknowledged her
criminal and drug history.
UP 161 The jury found Appellant guilty as charged. The court sentenced Appellant
to eleven years for involuntary manslaughter. On agreement of the parties, the drug
trafficking offense was merged into the greater offense. Appellant filed a timely
notice of appeal from the March 7, 2019 1**111 sentencing entry. He then filed
motions for a new trial and acquittal. As the trial court opined that it could not rule
on the motions pending appeal, this court issued a limited remand order. After the
trial court denied the motions, the appeal was reactivated.

ASSIGNMENT OF ERROR ONE: SUFFICIENCY/CAUSATION
f*P171 Appellant's first assignment of error provides:
"The trial court erred in denying Appellant's motion for acquittal as there was
insufficient evidence to support a conviction for involuntary manslaughter."
UP 181 HN1 The standard for reviewing the sufficiency of the evidence to support a
criminal conviction on appeal is the same as the standard used to review the denial
of a motion for acquittal. See, e.g., Crim.R. 29(A) (referring to insufficient
evidence), £C) (post-verdict motion for acquittal); State v. Williams, 74 Ohio St.3_d
569. 576. 1996- Ohio 91. 660 N.E.2d 724 (1996). Whether the evidence is legally
sufficient to sustain a conviction is a question of law dealing with adequacy. State v.
TVinmpkins 78 Ohio St.3d 380. 386. 1997- Ohio 52. 678 N.E.2d 541 (19971. An
evaluation of witness credibility is not involved in a sufficiency review as the

Page 10 of 23

question is whether the evidence is sufficient if believed. State v. Yarbrough, 95
Ohio St. 3d 227. 2002-Qhio-2126. 767 N.E.2d 216, 1f 79, 82; State v. Murphy, 91
Ohio St.3d 516. 543. 2001- Ohio 112. 747 N.E.2d 765 (2001). In other words,
sufficiency involves the state's burden of production rather than its burden of
persuasion. Thomnkins. 78 Ohio St.3d at 390 (Cook, J., concurring).
T*P191 HN2 "A conviction can r**121 be sustained based on circumstantial
evidence alone." State v. Franklin. 62 Ohio St.3d 118, 124, 580 N.E.2d 1 (1991).
Circumstantial evidence inherently possesses the same probative value as direct
evidence. State v. Treesh. 90 Ohio St.3d 460. 485, 2001- Ohio 4. 739 N.E.2d 749
(20011.
[*P201 HN3 A conviction cannot be reversed on the grounds of insufficient evidence
unless the reviewing court determines that no rational juror could have found the
elements of the offense proven beyond a reasonable doubt. State v. Goff, 82 Ohio
St.3d 123. 138. 1998- Ohio 369. 694 N.E.2d 916 (1998). In conducting this review,
all of the evidence is to be viewed in light most favorable to the
prosecution. Id. Reasonable inferences to be drawn from the evidence are also
evaluated in the light most favorable to the state. See State v. Filiaggi, 86 Ohio
St.3d 230. 247. 1999- Ohio 99. 714 N.E.2d 867 (1999). See also Jackson v. Virginia,
443 U.S. 307. 319. 99 S.Ct. 2781. 31 L.Ed.2d 560 (1979) (pointing to reasonable
inferences about both basic and ultimate facts in evaluating the due process
requirement of sufficient evidence). The question is merely whether "any rational
trier of fact" could have found the essential elements proven beyond a reasonable
doubt. (Emphasis original.) See State v. Getsv, 84 Ohio St.3d 180, 193, 1998- Ohio
533. 702 N.E.2d 866 (1998).
[*P211 HN4 First-degree felony involuntary manslaughter has the relevant
following elements: "cause the death of another * ie "k as a proximate result of the
offender's committing or attempting to commit a felony." R.C. 2903.04(A), (C). Here,
the felony was drug trafficking, and Appellant was additionally charged with
knowingly 1**131 selling or offering to sell a schedule II controlled substance.
Fentanyl is a schedule II controlled substance.
r*P221 The state presented the messages between Appellant's Facebook Messenger
account and the decedent arranging the drug sale. The jury heard Nicole testify that
Appellant was her drug dealer, she was his drug runner, and she let him "trap" (sell
drugs) out of her house. He instructed her to deliver drugs to the decedent and
handed her the folded packet of fentanyl which she believed was heroin. Appellant
also kept in contact with his drug runner before and after the delivery and received
the $40 from Nicole when she returned to her house. Nicole nearly overdosed on a
pink substance in front of Appellant the day before the delivery to the decedent, she
noted heroin is usually brown. The police noticed a pink residue on the spoon used

Page 11 of 23

to prepare the drugs for injection and recovered a pink substance from the folded
packet which was on the kitchen table in front of the decedent's body. Forensic
testing showed the pink substance was fentanyl. The testimony presented by
Appellant and his girlfriend contested some of Nicole's testimony, but this was a
consideration for the jury in r**141 determining the weight of the evidence, as
discussed in the second assignment of error. From the direct and circumstantial
evidence presented at the trial, a rational juror could conclude that Appellant sold
the fentanyl which was injected by the decedent.
r*P231 In any event, Appellant's specific argument takes issue with the causation
element of involuntary manslaughter. He contends the state failed to prove that his
conduct of supplying the fentanyl was the actual or legal cause of the decedent's
death. He relies on the United States Supreme Court's Burrage case and the Fifth
District's application of Burrage to reverse a conviction for involuntary
manslaughter in Kosto, a case involving a mixed drug overdose.
[*P241 In Burrage, the defendant was federally indicted for unlawfully distributing
heroin with an additional sentencing enhancement element applying to cases where
"death ie *k it results from the use of such substance." Burrage v. United States, 571
U.S. 204. 206-209. 134 S.Ct. 881. 187 L.Ed.2d 715 (2014), citing 21 U.S.C.
841(b')(l)(C) (mandatory minimum of 20 years, maximum of life). The additional
element was an issue for the trier of fact and had to be proven beyond a reasonable
doubt. Burrage. 571 U.S. at 210. In the Burrage case, the decedent's blood contained
multiple drugs in addition to heroin metabolites, including [**151 codeine,
alprazolam, clonazepam metabolites, and oxycodone. Id. at 207. The two experts
who testified "could not say whether [the decedent] would have lived had he not
taken the heroin." Id. One expert said heroin "was a contributing factor" in the
death as it interacted with the other drugs to cause respiratory and/or central
nervous system depression; the other expert testified similarly and described the
cause of death as "mixed drug intoxication" with heroin, oxycodone, alprazolam, and
clonazepam all playing a "contributing" role, adding only that the death would have
been "[v]ery less likely" without the heroin. Id.
T*P251 After a jury convicted the defendant and the circuit court affirmed, the
United States Supreme Court granted certiorari on two issues: "Whether the
defendant may be convicted under the 'death results' provision (1) when the use of
the controlled substance was a "contributing cause" of the death, and (2) without
separately instructing the jury that it must decide whether the death by drug
overdose was a foreseeable result of the defendant's drug-trafficking offense. Id. at
208.
f*P261 The Burrage Court first outlined the two parts of the causation element in
i a
criminal case: actual cause and [**161 legal cause. Id. at 210. HN5 In general, when

Page 12 of 23

a crime requires both conduct and a specific result of the conduct, a defendant s
conduct must be both the actual cause and the legal cause of the result. Id. The
Court specified that it was only reaching the issue of actual cause. Id. On the topic
of legal cause, the Court said legal cause is also called proximate cause and noted
that the two issues accepted for review corresponded to the two parts of causation
(meaning legal cause involves foreseeability). Id. at 208, 210.
T*P271 On the topic of actual cause, the state argued the "death results" language
of the statute is satisfied if the substance sold was a "contributing factor" or a
"substantial factor" such as when the drug sold was one of the drugs involved in a
mixed drug overdose death. Td. at 214-215. The Court rejected this argument,
stating the lower courts would be left to guess how substantial a cause must be to
qualify and noting Congress could have written the statute to impose a mandatory
minimum when the underlying crime "contributes to" death. Id. at 216, 218.
[*P281 HN6 The Court defined the element "death results" as requiring but-for
causation so that the state was required to prove that the decedent would not have
died but for the defendant's r**171 conduct. Id. at 211-212 (noting that but-for
causation would not be required if a statute contains "textual or contextual
indication to the contrary"). In other words, the prosecution must submit "proof that
'the harm would not have occurred' in the absence of—that is, but for—the
defendant's conduct." Id.at 211.
[*P291 The Court first gave the simple example of a defendant shooting a victim
who dies from the gunshot, stating the defendant actually caused the death because
but for the conduct, the decedent would not have died. Id. Notably: "The same
conclusion follows if the predicate act combines with other factors to produce the
result, so long as the other factors alone would not have done so—if, so to speak, it
was the straw that broke the camel's back." Id.
r*P301 The Court explained that if a defendant poisons a man debilitated by
multiple diseases, the poison is a but-for cause of his death even if the diseases
played a part in his death "so long as, without the incremental effect of the poison,
he would have lived." Id. The Court admonished that "but-for causation is not
nearly the insuperable barrier the Government makes it out to be" and cited two
examples where an expert testified that the drug distributed [**181, by the
defendant was a but-for cause of death even though the decedent's blood contained
several drugs. Id. at 217.
f*P311 As for a cited example of relaxed but-for causation, the Court pointed out
that it was not faced with the type of case where the drug was said to be an
independent cause of death, such as where two strangers each inflict a fatal wound
on a victim at the same moment. Burrage, 571 U.S. at 214-215. HN7

Page 13 of 23

In such

case, the defendant's conduct can still be an independent cause even though his
conduct was not the but-for cause of death since the victim would have died
anyway. Id.
(*P321 HN8 The Court concluded: "We hold that, at least where use of the drug
distributed by the defendant is not an independently sufficient cause of the victim's
death or serious bodily injury, a defendant cannot be liable under the penalty
enhancement provision of 21 U.S.C. § 841(b)(1)(C) unless such use is a but-for cause
of the death or injury." Td. at 218-219. As the government conceded that there was
no evidence the decedent "would have lived but for his heroin use," the Court
reversed the defendant's conviction under the penalty enhancement and
remanded. Id. at 219.
T*P331 First, we note that Burrage was an appeal from a federal conviction where
the non-constitutional issue involved the interpretation [**191 of language in a
federal statute. It is therefore not binding on a state court's interpretation of the
state's own statutes. See, e.g., United States v. Thirty-Seven Photographs, 402 U.SL
363. 369. 91 S.Ct. 1400. 28 L.Ed.2d 822 (1971) ("we lack jurisdiction authoritatively
to construe state legislation"); State v. Phillips, 27 Ohio St.2d 294, 298, 272 N.E.2d
347 (19711 (the reversal of a conviction under a federal statute, which is unrelated
to constitutional grounds that dictate the course of state law, may be persuasive
authority but is not binding on a state court).
f*P341 Second, the Burrage Court noted that a strict but-for test of causation .
would not be applied if a statute contained a "textual or contextual indication to the
contrary." Id. at 212. Subsequently, the Court found such a textual or contextual
indication against but-for causation where a federal statute limited restitution to
losses that are the "proximate result" of the defendant's offense. Paroline v. United
States. 572 U.S. 434. 458. 134 S.Ct. 1710. 188 L.Ed.2d 714
(2014) (noting Burrage mentioned that some statutes may have indicators against
the but-for test). "[S]uch unelaborated causal language by no means requires but-for
causation by its terms." Id. (and indicating the contributing role of the defendant in
the victim's loss due to child pornography should be considered in determining
restitution).
[*P351 HN9 The statute in the case before us requires the defendant to
"cause [**201 the death of another if 4: if as a proximate result" of committing or
attempting to commit a felony. R.C. 2903.04(A). Ohio courts regularly conclude the
"proximate result" language in the involuntary manslaughter statute requires the
state to show: (1) actual cause, generally through the but-for test; and then, (2) legal
cause, through the foreseeability test. See State v. Mitchell, 3rd Dist. Union No. 1419-14. 2019-Qhio-5168. IT 23 (but there can be more than one cause); State v. Potea,
12th Dist. No. CA2016-00-045. 2017-Ohio-2926, 90 N.E.3d 58,1f 33. Ohio's standard

Page 14 of 23

jury instruction (provided in this case) first defines cause as "an act or failure to act
which in a natural and continuous sequence directly produces the death of another,
and without which it would not have occurred"; it then explains that natural
consequences include the foreseeable consequences that follow in the ordinary
course of events. O.J.I., Crim. Section 417.23 (2019). The language, "without which
it would not have occurred," encapsulates but-for causation.
f*P361 Similarly, this court has reviewed a felony-murder conviction under a
statute with the same "cause the death of another rk k k as a proximate result of'
language. State v. Franklin. 7th Dist. Mahoning No. 06-MA-79, 2008-Qhio-2264,1i
18, quoting R.C. 2903.02(B). HN10 We held: "In order for a criminal defendant's
conduct to be the proximate cause of a fatal result in a felony murder
case, [**211 the court must first determine whether the killings would not have
occurred 'but for' the defendant's conduct. The court must then determine whether
the result varied greatly from the intended outcome or foreseeable result of the
underlying crime * * *." Franklin. 7th Dist. No. 06-MA-79, 2008-Qhio-2264 at H 120121. quoting State v. Franklin. 10th Dist. Franklin No. 06AP-1154, 2008-Qhio-462,
125.
r*P371 HN11 The but-for test of causation is the standard test for establishing
cause in fact. Ackison v. Anchor Packing Co.. 120 Ohio St. 3d 228. 2008-Ohio-5243,
897 N.E.2d 1118.1T 48. A substantial factor can be used in civil cases where a
plaintiff suffers a single injury as a result of the tortious acts of multiple
defendants. Pang v. Minch. 53 Ohio St.3d 186. 559 N.E.2d 1313 (1990). In criminal
cases involving the involuntary manslaughter statute and a mixed drug overdose,
some Ohio appellate courts have expressed that, contrary to Burrage, a substantial
factor test can be applied. See State v. Price. 8th Dist. No. 107096, 2019-Qhio-1642,
135 N.E.3d 1093. If 42: State v. Carpenter. 3rd Dist. No. 13-18-16, 2019-Qhio-58,
128 N.E.3d 857. 1 51-52 ("there are circumstances under which the "but for" test is
inapplicable and an act or omission can be considered a cause in fact if it was a
"substantial" or "contributing" factor in producing the result"). See also State w
Hall. 12th Dist. Preble No. CA2015-11-022, 2017-Qhio-879. t 71-74. Nevertheless,
the Price case still suggested but-for causation was satisfied. Price, 8th Dist. No.
107096. 2019-Qhio-1642 at f 42-43 (finding f**221 the trial court instructed the
jury on but-for causation).!
[*P381 These cases rejected the holding in Kosto where the Fifth District found the
evidence was insufficient to show the heroin supplied by the defendant caused the
victim's death under the involuntary manslaughter statute after attempting to
apply but-for causation under the Burrage rationale. State v. Kosto, 5th Dist...
Tacking No. 17 CA 54. 2018-Qhio-1925. IT 24-25.2 The Kosto court concluded: "just
as in Burrage, 'no expert was prepared to say that the victim would have died from
the heroin use alone.'" Id. at IT 23, quoting Burrage, 134 S. Ct. at 890.

Page 15 of 23

T*P391 However, this is a misinterpretation of Burrage. That statement
in Burrage was explaining why the independent cause test was not at issue in that
case;• the statement was not defining but-for causation (an issue which the Court
framed as asking whether the death would not have occurred without the drug
supplied by the defendant). Specifically, this excerpt on "heroin use alone" is
modified by:
courts have not always required strict but-for causality, even where criminal
liability is at issue. The most common (though still rare) instance of this occurs
when multiple sufficient causes independently, but concurrently, produce a result. *
* * To illustrate, if "A 1**231 stabs B, inflicting a fatal wound; while at the same
moment X, acting independently, shoots B in the head ... also inflicting [a fatal]
wound; and B dies from the combined effects of the two wounds," A will generally be
liable for homicide even though his conduct was not a but-for cause of B's death
(since B would have died from X's actions in any event), ie *k Je We need not accept or
reject the special rule developed for these cases, since there was no evidence here
that Banka's heroin use was an independently sufficient cause of his death. No
expert was prepared to say that Banka would have died from the heroin use alone.
-k * "k

(Emphasis added). Burrage, 134 S. Ct. at 890.
r*P401 Likewise, Appellant believes Burrage means that the testimony must show
the decedent would have died from the drug he provided alone. HN12 However, the
independent cause test is not the same as but-for causation. The Court's conclusion
of law specifically stated: if the situation does not satisfy the independent cause
test, then but-for causation would apply. Burrage, 571 U.S. at 218-219. This was
after pointing out that the independent cause test was not before the Court. Id. at
215 (as there was no testimony that the decedent would have died from heroin
alone). Therefore, in applying the 1**241 but-for test to actual cause, the United
States Supreme Court did not require the prosecution to show the drug supplied
would have killed the decedent if there were no other drugs in her system.
UP411 Rather, the Court expressly said but-for causation required the prosecution
to show the decedent would have survived if not for the drug the defendant
supplied. Id. at 219. The fact that there was a mixed drug overdose but the
defendant only supplied one drug is not dispositive. See id. at 211(pointing to the
straw that broke the camel's back), 216 (but-for causation would be satisfied by the
presentation of testimony stating that even though multiple drugs were in the
decedent's system, he would not have died without the addition of the drug at
issue).
r*P421 Our case is distinguishable from the Supreme Court's Burrage case as the
testimony in the case at bar indicated that the decedent believed she was receiving
and injecting heroin, not fentanyl. The coroner explained that a quarter of an inch

Page 16 of 23

of heroin in a vial compares to a mere two drops of fentanyl. (Tr. 495). A rational
person could find the state showed fentanyl was an independent cause of death
(which would have occurred even if she had no other drugs in T**251 her system) as
the evidence shows the decedent took a "lethal dose" of fentanyl thinking it was
heroin. (Tr. 469, 489, 494).
T*P431 Regardless, our case is distinguishable from the non-binding Burrage case
as the state established that fentanyl was the but-for cause of death. The coroner
specifically testified that the decedent ingested a lethal dose of fentanyl and she
would not have died if she had not used the fentanyl. (Tr. 493-494). If the state
showed the fentanyl provided by Appellant was the but-for cause of the decedent's
death, then: the application of Burrage's but-for causation rationale would not
assist Appellant; Kosto is distinguishable; and there is no need to consider a
substantial factor test.
[*P441 Here, the coroner testified to a reasonable degree of medical certainty that
the decedent's cause of death was asphyxia and drug overdose. (Tr. 473). The death
certificate reported: the immediate cause of death was asphyxia, a condition leading
to the cause was mixed drug overdose, and the injury occurred when the decedent
took a lethal dose of drugs. (Tr. 485); (Def.Ex. C). Appellant emphasizes the
reporting of a mixed drug overdose, the ability of the anti-anxiety drug to
suppress [**261 respiration if overused, and the testimony that a person can build a
tolerance to heroin and even to fentanyl. (Tr. 470). However, there was no
indication that the decedent ordered fentanyl, while there was an indication that
she ordered heroin.
[*P451 Appellant suggests that to ensure a fact-finder can rely on the coroner's
individual opinions, the coroner must continue to repeat that his opinions were to a
"reasonable degree of scientific certainty" rather than preface his opinion with
phrases such as, "I know" (when utilizing information disclosed by investigators to
formulate his conclusions).3 HN13 In response to an argument on the failure to
modify an opinion by "reasonable degree of scientific certainty" language, the
Supreme Court has pointed out that Evid.R. 702 requires that an expert's testimony
be based on "reliable" scientific, technical, or other specialized information. State v.
Lang. 129 Ohio St. 3d 512. 2011-Qhio-4215. 954 N.E.2d 596, 11 72 (and an objection
must be made to preserve an evidentiary argument). Appellant suggests that
without the repetition of the modifying phrase for subsequent pieces of testimony
provided by the coroner, we are not permitted to utilize his testimony that the
decedent would not have died if she had not used the fentanyl in our
evaluation T**271 of the sufficiency or the weight of the evidence.
[*P461 HN14 Yet, the Lang Court held that an expert witness in a criminal cases
can testify in terms of possibility rather than in terms of a reasonable scientific

Page 17 of 23

certainty or probability, and the treatment of such testimony is analyzed under a
sufficiency and weight argument, meaning that it is considered along with all of the
other evidence. Td. at f 77-78. citing State v. D'Ambrosio, 67 Ohio St.3d 185, 191,
1993- Ohio 170. 616 N.E.2d 909 (1993) ("While several decisions from this court
indicate that speculative opinions by medical experts are inadmissible since they
are based on possibilities and not probabilities, * * * the better practice, especially
in criminal cases, is to let experts testify in terms of possibility."). See also State v.
Thompson. 141 Ohio St. 3d 254. 2014-Qhio-4751. 23 N.E.3d 1096, 1 129 (In the
criminal context, questions about certainty go not to admissibility but to sufficiency
of the evidence; they are matters of weight for the jury."). Moreover,
the Burrage holding was not about whether an expert used the phrase "reasonable
degree of scientific certainty" but was about the lack of an opinion that the decedent
would still be alive if not for the drug at issue. And again, the evidence in our case
leads a reasonable person to believe the decedent died because she
received [**281 fentanyl instead of the heroin she ordered.
[*P471 In considering all of the circumstances, there are various background facts
which are relevant to the consideration of actual cause, including: the decedent's
age (30) and lack of known health conditions; her prior request for heroin (and
crack) for the earlier delivery; the timing of the texts showing the delivery time; the
content of an undelivered text about the product she injected; the drug runner
experience with the pink product; the position of the body in a chair at the kitchen
table; the baby's presence on the other side of the gate; and the uncapped syringe
and packet of fentanyl remaining on the kitchen table near a spoon (used for
preparing the injection and still containing residue) and a hairband (likely used as a
tourniquet). These facts suggest that fentanyl was the final controlled substance
ingested and was not anticipated by the decedent to be fentanyl.
f*P481 Furthermore, the coroner explained the other drugs in the decedent's
system and compared them to fentanyl. First, the toxicology report was introduced,
which showed the decedent's blood contained: fentanyl; benzodiazepine (anti­
anxiety), dextromethorphan (cough suppressant). [**291 and gabapentin (anti­
convulsant). (Tr. 454, 467, 472, 480-483). The anti-convulsant was well within the
therapeutic range; it is often prescribed to alleviate pain, and the decedent's
medical records indicated a history of migraines. (Tr. 471-472, 482). The lab did not
report the therapeutic ranges for the cough medicine or the anti-anxiety drug. The
cough suppressant was a Schedule V controlled substance which was previously
available over-the-counter. (Tr. 483). The coroner acknowledged the anti-anxiety
drug can suppress breathing but suggested a lethal dose is uncommon and
emphasized that it was a Schedule IV controlled substance with less risk of
addiction and overdose than fentanyl. (Tr. 481, 497).

Page 18 of 23

r*P491 As to fentanyl, the report showed the amount in the decedent's system was
nine nanograms per milliliter and listed the therapeutic range at one to three. The
coroner was an internal medicine specialist at various local hospitals and graduated
from a college of pharmacy before attending medical school. (Tr. 457-459). He
opined the therapeutic range for fentanyl was only one to two nanograms per
milliliter, according to the authorities he relies upon; he noted it was commonly
applied f**301 topically through a patch for severe cancer and end of life pain. (Tr.
468, 470, 486). He described how fentanyl paralyzes the muscles of the chest wall
and suppresses respiration causing a person to suffocate. (Tr. 468, 471). He opined
the decedent originally had a higher level of fentanyl in her system than the test
showed because fentanyl is metabolized into norfentanyl, which is metabolized by
the liver instantaneously and not measured by the test. (Tr. 468).
[*P501 The coroner concluded the dose of fentanyl in the decedent's system was
lethal and she would still be alive but for taking the fentanyl. (Tr. 493). From all of
this, a rational person could find beyond a reasonable doubt that the fentanyl was
the actual cause (or cause-in-fact) of the decedent's death.
r*P511 Appellant does not then alternatively discuss foreseeability, but he did
begin by generally arguing that the state failed to prove his conduct was "either the
actual or legal cause of [the decedent's] death." (Apt.Br. 7). HN15 "Cause in fact is
distinct from proximate, or legal cause." Renfrow v. Norfolk S. Rv. Co., 140 Ohio St.
3d 371. 2014-Ohio-3666. 18 N.E.3d 1173. 1f 20. After cause in fact is established,
proximate cause must be demonstrated. Id. See also Burrage, 571 U.S. at 208,
210 (legal cause is also called proximate cause and involves [**31] foreseeability).
T*P521 HN16 "Foreseeability should be assessed from the viewpoint of what the
defendant knew or should have known in light of ordinary experience." FrankliiL
7th Dist. No. 06-MA-79. 2008-Qhio-2264 at f 120. quoting Franklin, 10th Dist. No.
06AP-1154. 2008-Qhio-462 at H 25. Mitchell. 3rd Dist. No. 14-19-14, 2019-Qhio-5168
at f 24 (the defendant is responsible for the foreseeable consequences that are
known or should be known to be within the scope of risk created by his
conduct); State v. Losev. 23 Ohio Apn.3d 93, 95, 23 Ohio B. 158, 491 N.E.2d 379
noth Dist. 1985). Here, the result did not vary greatly from the foreseeable result of
the underlying crime as the result was not so surprising that it would be unfair to
hold the defendant criminally responsible. See Franklin. 7th Dist. No. 06-MA-79,
2008-Qhio-2264 at 1f 120.
f*P53l HN17 "The possibility of overdose is a reasonably foreseeable consequence
of the sale of heroin." State v. Patterson. 11th Dist. Trumbull No. 2013-T-0062,
2015-Ohio-4423. If 91. See also Mitchell. 3rd Dist. No. 14-19-14, 2019-Qhio-5168 at
24. 31: State v. Carpenter. 3d Dist. Seneca No. 13-18-16. 2019-Qhio-58, f 56, 128
N,E.3d 857; State v. Vogt. 4th Dist. Washington No. 17CA17, 2018-Qhio-4457, If 99^

Page 19 of 23

100. 105: State v. Velev. 6th Dist. Lucas No. L-16-1038, 2017-Qhio-9064,1f
25. Death is even more foreseeable when the drug supplied is fentanyl.
Furthermore, there were additional pertinent facts presented on this topic,
including: Appellant's experience as the decedent's dealer; the near overdose
experienced by Appellant's drug runner in his presence the day before Appellant
sold the fentanyl to the decedent; the pink color of the substance the drug
runner [**321 injected, when heroin was usually brown; and the pink color of the
substance supplied by Appellant to the decedent which she injected. Accordingly,
there was sufficient evidence to show legal causation.
f*P541 For all of the foregoing reasons, this assignment of error is overruled.

ASSIGNMENT OF ERROR TWO: MANIFEST WEIGHT
[*P551 Appellant's second assignment of error contends:
"The conviction for involuntary manslaughter was against the manifest weight of
the evidence."
r*P561 HN18 Weight of the evidence concerns "the inclination of the greater
amount of credible evidence, offered in a trial, to support one side of the issue rather
than the other"; it deals with the persuasive effect of the evidence in inducing belief
and is not a question of mathematics. State v. Thompkins, 78 Ohio St.3d 380, 387^
1997- Ohio 52. 678 N.E.2d 541 (1997). A weight of the evidence review considers
whether the state met its burden of persuasion, as opposed to the burden of
production involved in a sufficiency review. See id. at 390 (Cook, J., concurring).
f*P571 HN19 When a defendant claims a conviction is contrary to the manifest
weight of the evidence, the appellate court is to review the entire record, weigh the
evidence and all reasonable inferences, consider the credibility of witnesses, and
determine whether, in resolving conflicts [**331 in the evidence, the trier of fact
clearly lost its way and created such a manifest miscarriage of justice that the
conviction must be reversed and a new trial ordered. State v. Lang. 129 Ohio St. 3d
512. 2011-Qhio-4215. 954 N.E.2d 596. f 220. citing Thompkins. 78 Ohio St.3d at
387. The appellate court's discretionary power to grant a new trial on these grounds
can be exercised only in the exceptional case where the evidence weighs heavily
against the conviction. Id.
r*P581 HN20 The weight to be given the evidence is primarily for the trier of the
facts. State v. Hunter. 131 Ohio St. 3d 67. 2011-Qhio-6524. 960 N.E.2d 955, If 118
quoting State v. DeHass. 10 Ohio St.2d 230. 227 N.E.2d 212 (1967), paragraph one
of the syllabus. HN21 The trier of fact occupies the best position from which to
weigh the evidence and judge the witnesses' credibility by observing their gestures,

Page 20 of 23

voice inflections, and demeanor. Seasons Coal Co. v. Cleveland, 10 Ohio St.3d 77,
80. 10 Ohio B. 408. 461 N.E.2d 1273 (1984).
r*P591 HN22 Additionally, in a case tried by a jury, only a unanimous appellate
court can reverse on the ground that the verdict was against the manifest weight of
the evidence. Thomnkins. 78 Ohio St.3d at 389. citing Ohio Constitution. Article IV,
Section 3(B1(3). The power of the court of appeals to sit as the "thirteenth juror" is
limited in order to preserve the jury's role with respect to issues surrounding the
credibility of witnesses and the weight of the evidence. Thompkins, 78 Ohio St.3d at
387. 389. When more than one competing interpretation of the evidence is available
and the one chosen by the jury is not unbelievable, we do not choose
which [**341 theory we believe is more credible and impose our view over that of
the jury. State v. Gore. 131 Ohio App.3d 197. 201, 722 N.E.2d 125 (7th Dist. 1999).
r*P601 The jury could find the testimony of Appellant and his girlfriend lacked
credibility. Instead, the jury could choose to believe the testimony of Nicole and
find: Appellant handed her the packet containing fentanyl and instructed her to
deliver it to the decedent; she did so and received $40 from the decedent which she
passed on to Appellant; when Nicole sampled Appellant's drugs the day before, she
noticed that what she thought was heroin was pink in color instead of brown; and
she almost overdosed after sampling the drug in Appellant's presence. Additionally,
the jury could conclude that Appellant used his own Facebook profile to arrange the
drug deal with the decedent through the private messenger service. See, e.g., State
v. Vogt. 4th Dist. Washington No. 17CA17. 2018-Ohio-4457, f 84, 86.
[*P611 Appellant mainly relies on the argument set forth under his sufficiency
assignment of error. He concludes that even if we find the evidence was sufficient to
support the causation element, we should find that the jury's conclusion on
causation was against the manifest weight of the evidence. However, the direct and
circumstantial evidence indicates that the fentanyl was the actual and
legal r**351 cause of the decedent's death. For specifics, we refer to the discussion
supra on the facts and law relevant to causation.
[*P621 The strength of those facts and the application of the law set forth supra
prevents this court from sitting as the proverbial "thirteenth juror" in this case. As
to actual cause, the coroner testified decedent took a lethal dose of fentanyl and
would have lived if she had not ingested fentanyl (i.e., she would not have died but
for the fentanyl). The surrounding circumstances contributed to the reasonableness
of the conclusion that she would not have died without the fentanyl. As to legal
cause, the jury did not lose its way in finding the decedent's death was a foreseeable
result of the fentanyl sale. See, e.g., State v. Wells, 12th Dist. Warren No. CA201602-009. 2017-Qhio-420. f 39 (the jury did not lose its way in finding fentanyl was
the actual and legal cause of death).

Page 21 of 23

f*P631 After reviewing the entire record, weighing the evidence and all reasonable
inferences, and considering the credibility of witnesses and the conflicts in the
evidence, we cannot find the jury clearly lost its way in finding Appellant caused the
decedent's death as a proximate result of committing or attemptingj^36]_ to
commit felony drug trafficking. There is no indication the jury's verdict resulted in a
manifest miscarriage of justice. Accordingly, this assignment of error is overruled.
T*P641 The trial court's judgment is affirmed.
Waite, P.J., concurs.
D'Apolito, J., concurs
For the reasons stated in the Opinion rendered herein, the assignments of error are
overruled and it is the final judgment and order of this Court that the judgment of
the Court of Common Pleas of Columbiana County, Ohio, is affirmed. Costs waived.
A certified copy of this opinion and judgment entry shall constitute the mandate in
this case pursuant to Rule 27 of the Rules of Appellate Procedure. It is ordered that
a certified copy be sent by the clerk to the trial court to carry this judgment into
execution.

NOTICE TO COUNSEL
This document constitutes a final judgment entry.
Footnotes
1
A discretionary appeal is pending in the Ohio Supreme Court on a proposition
related to the involuntary manslaughter count asking whether the jury must be
instructed that the drug supplied by the defendant "was an independent cause of
death and that, but for the ingestion of those drugs, the user would not have
died." State v. Price. 157 Ohio St.3d 1418. 2019-Ohio-3797, 131 N.E.3d 961. Also, a
conflict was certified with Kosto on the issue of whether the Burragerationale on
but-for causality applies to the causation element in the offense of corrupting
another with drugs. State v. Price. 157 Ohio St. 3d 1417. 2019-Ohio-3797, 131
N.E.3d 952.
2
Kosto used the same rationale to reverse the defendant's conviction for corrupting
another with drugs under R.C. 2925.02(A)(3), which states: "[n]o person shall
knowingly if k k administer or furnish to another or induce or cause another to use a

Page 22 of 23

controlled substance, and thereby cause serious physical harm to the other person."
That statute does not contain the "proximately results" language of the involuntary
manslaughter statute.
3

Appellant seems to place some arguments in the factual section of the brief where
he seems to take issue with the coroner's statement that it was "reasonable to
assume " the decedent overdosed on drugs based on the circumstances and the drug
paraphernalia. (Tr. 464). Yet, this was in the context of the coroner explaining why
an autopsy was not performed; the Cuyahoga County Medical Examiner was
overwhelmed and could no longer perform autopsies for drug overdoses without a
showing of need. Moreover, toxicology was then ordered which confirmed the initial
reasoning.
vv

Page 23 of 23

APPENDIX C

Case No. 2018-CR-155

Trial Court Judgment Entry

iii

t\ *

IN -THE COURT OF COMMON PLEAS
COLUMBIANA COUNTY, OHIO
STATE OF OHIO
Plaintiff
vs.
RUBIN L. WILLIAMS
Defendant.

)
)
)
)
)
)
)
)
)

Aftf

CASE NO. 2018-CR-155

JUDGMENT ENTRY

On March 1,2019 a sentencing hearing was held in this case. Assistant
Prosecuting Attorneys John Gamble and Tammie Jones appeared on behalf of
the State of Ohio. Attorney Paul Conn appeared on behalf of the Defendant.
The Defendant appeared.
On February 27, 2019, through its verdicts the jury found the Defendant
Guilty of Count One of the Indictment, involuntary Manslaughter, a violation of
R.C. § 2903.04(A), a Felony of the First Degree, and of Count Two of the
Indictment, Trafficking In Drugs, a violation of R.C. § 2925.03(A)(1), a Felony of
the Fourth Degree.
The Court heard from counsel. Representatives of Jennifer Bettis,
deceased, were present but declined the opportunity to address the Court. The
Defendant was afforded all rights pursuant to Crim. Rule 32 and made a
statement on his own behalf.
The Court has considered the record, the information presented at the
hearing, as well as the principles and purposes of sentencing under R.C.
2929.11, and has balanced the seriousness and recidivism factors of R.C.
2929.12.

1

Who

( *'

On Count One, the Defendant is sentenced to prison for Eleven (11)
years. On Count Two, the Defendant is sentenced to prison for Eighteen (18)
months. Counsel agree and this Court finds that Count Two merges into Count
One for purposes of sentencing only. The Defendant's Eleven (11) year prison
sentence imposed herein shall be served consecutively to all other prison
sentences now imposed against the Defendant.
Pursuant to R.C. 2929.14, this Court finds that consecutive prison
sentences are necessary to punish the offender, to protect the public from future
crimes, and that consecutive sentences are not disproportionate to the
seriousness of the Defendant's conduct and the danger he poses to the public.
This Court also finds that the Defendant's history of criminal conduct
demonstrates that consecutive sentences are necessary to protect the public
from future crime by the Defendant.
The sentence being imposed herein is not any form of trial tax, which is
repugnant to our system of justice. The sentence is imposed based upon my
consideration of the record, which includes the Defendant's own testimony
regarding his repeated involvement with illegal drugs in the community, which in
this case culminated in the death of Jennifer Bettis.
The Defendant is granted jail credit of zero days served as of this date
based on the fact that he is serving and is in custody on a separate prison
sentence. Counsel for the Defendant urges that the Defendant is entitled to jail
credit from approximately April 19, 2019. Counsel for the Defendant is granted
leave until March 15. 2019 at 4:00 p.m. to file any further Motion seeking

2

» '
additional jail credit on behalf of the Defendant. Counsel for the State of Ohio is
granted leave to file its response until March 22. 2019 at 4:00 p.m. The Court
will thereafter decide the issue of further jail credit, if any, on the briefs that are
submitted.
The Defendant was advised of weapons and/or ammunition disability
under Ohio and/or Federal law.
The Defendant was notified at the hearing of Post Release Control (PRC)
pursuant to R.C. 2929.19. Upon being released from prison the Defendant was
notified he will be supervised by the Parole Board for Five (5) years on PRC,
which is mandatory. The Adult Parole Authority will administer PRC pursuant to
R.C. 2967.28 and any violation of the conditions of PRC will subject the
Defendant to the consequences set forth in that statute. If the Defendant violates
that supervision or a condition of PRC, the parole board may impose a prison
term, as part of the sentence, of up to one-half of the stated prison originally
imposed upon the Defendant.
Pursuant to R.C. 2901.07 the Defendant shall submit to DNA collection at
the Columbiana County Jail or appropriate state correctional facility.
The Defendant shall pay the costs of this action, including the costs of the
jury, which are hereby taxed against him. Payment of the costs is deferred until
such time as the Defendant is released from prison.
The Defendant was also advised of the following:
1.) You have the right to appeal your conviction as well as the sentence
imposed against you.

3

* '

2.) If you are unable to pay for the cost of an appeal, you have the right to
appeal without payment upon your request.
3.) If you are unable to obtain counsel to file an appeal, counsel will be
appointed without cost upon your request.
4.) If you are unable to pay for the cost of preparing documents necessary
to appeal, the documents will be provided without cost, upon your request.
5.) You have the right to have a notice of appeal timely filed on your
behalf, within thirty (30) days of this date, upon your request.
Attorney Conn is requested to timely file any Notice of Appeal on behalf of
the Defendant.
Any bond of the Defendant in this case is released.
The Defendant shall remain in the custody of the Columbiana County Sheriff
while awaiting transport or return to the appropriate state correctional institution.
IT IS SO ORDERED.
Scott A. Washam, Judge
March 4, 2019
cc:

John Gamble, Esq.
Tammie Jones, Esq.
Paul Conn , Esq.
Sheriff

4

